mwe.com
Michael B. Kimberly
Attorney at Law
mkimberly@mwe.com
+1 202 756 8901

November 26, 2019
BY MAIL & ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Arizona v. Nunez-Diaz, No. 19-645

Dear Mr. Harris:
I represent respondent in the above-referenced case. The petition was filed on November
14, 2019 and docketed on November 19, 2019. Respondent’s brief in opposition is presently due
December 19, 2019.
I write to request a 30-day extension of time to file the brief in opposition, which by
operation of Rule 30.1 implies a due date of January 20, 2020. The extension is necessary in
light of the intervening Thanksgiving holiday and the press of other business, including a
December 12, 2019 oral argument in Health Distribution Alliance v. James, No. 19-199, in the
U.S. Court of Appeals for the Second Circuit.
Thank you for your attention to this matter.

Sincerely,

_______________________
Michael B. Kimberly
cc: counsel of record for petitioner

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

